<html>
<title> - MAKING THE OFFICE OF ADVOCACY INDEPENDENT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                     MAKING THE OFFICE OF ADVOCACY 
                              INDEPENDENT
=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                     WASHINGTON, DC, MARCH 20, 2002
                               __________

                           Serial No. 107-49
                               __________

         Printed for the use of the Committee on Small Business








                     U.S. GOVERNMENT PRINTING OFFICE
79-993                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                      COMMITTEE ON SMALL BUSINESS

                  DONALD MANZULLO, Illinois, Chairman
LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
ROSCOE G. BARTLETT, Maryland             California
FRANK A. LoBIONDO, New Jersey        DANNY K. DAVIS, Illinois
SUE W. KELLY, New York               BILL PASCRELL, Jr., New Jersey
STEVE. CHABOT, Ohio                  DONNA M. CHRISTENSEN, Virgin 
PATRICK J. TOOMEY, Pennsylvania          Islands
JIM DeMINT, South Carolina           ROBERT A. BRADY, Pennsylvania
JOHN R. THUNE, South Dakota          TOM UDALL, New Mexico
MICHAEL PENCE, Indiana               STEPHANIE TUBBS JONES, Ohio
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
DARRELL E. ISSA, California          DAVID D. PHELPS, Illinois
SAM GRAVES, Missouri                 GRACE F. NAPOLITANO, California
EDWARD L. SCHROCK, Virginia          BRIAN BAIRD, Washington
FELIX J. GRUCCI, Jr., New York       MARK UDALL, Colorado
TODD W. AKIN, Missouri               JAMES R. LANGEVIN, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  MIKE ROSS, Arkansas
BILL SHUSTER, Pennsylvania           BRAD CARSON, Oklahoma
                                     ANIBAL ACEVEDO-VILA, Puerto Rico
                      Doug Thomas, Staff Director
                  Phil Eskeland, Deputy Staff Director
                  Michael Day, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 20, 2002...................................     1

                               Witnesses

Sullivan, Hon. Thomas, Chief Counsel for Advocacy, U.S. Small 
  Business Administration........................................     3
Barrera, Michael, Small Business & Agriculture Regulatory 
  Enforcement Ombudsman, U.S. Small Business Administration......     4
Glover, Jere, Brand & Frulla.....................................     6

                                Appendix

Opening statements:
    Manzullo, Hon. Donald........................................    20
    Velazquez, Hon. Nydia........................................    23
Prepared statements:
    Sullivan, Hon. Thomas........................................    27
    Barrera, Michael.............................................    43
    Glover, Jere.................................................    50









               MAKING THE OFFICE OF ADVOCACY INDEPENDENT

                              ----------                              


                       WEDNESDAY, MARCH 20, 2002

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:40 a.m. in room 
2360, Rayburn House Office Building, Hon. Donald Manzullo 
presiding.
    Chairman Manzullo. The committee will come to order. 
Welcome to this hearing of the Committee on Small Business.
    Since its inception in 1976, the Office of Advocacy has had 
the difficult and important task of being an effective voice 
for small business within the Executive Branch of the Federal 
Government. There have been a number of distinguished 
individuals who, as Chief Counsel, have directed the Office of 
Advocacy and have left an admirable record of accomplishments 
despite the lack of resources and limited authority. One of 
those Chief Counsels, Jere Glover, is with us here today as one 
of our witnesses.
    Over time, there have been various constructive suggestions 
to strengthen the office and to make it more effective and 
independent. We heard a number of those suggestions at the 
hearing the committee held a year ago on March 22.
    Since that time, the Senate has passed and referred to the 
House, S. 395, the Independent Office of Advocacy Act of 2001. 
In light of this legislative activity and the subject, the 
previous legislation that was before the committee last March 
has been redrafted.
    The draft bill for discussion today is less ambitious than 
the previous version. It makes the office more independent and 
provides the office with greater resources and more authority 
to represent the interests of small businesses.
    I was encouraged yesterday by the President's small 
business agenda, particularly heartened with regard to specific 
points on the Office of Advocacy and how to make that office a 
stronger voice within the Federal Government.
    I believe this draft legislation, along with other 
provisions I intend to introduce to strengthen the Regulatory 
Flexibility Act mirror the President's thinking on this issue. 
We must ensure that regulators take into account the interests 
of small businesses prior to the issuance of a new rule. The 
law has been ignored far too often by too many agencies. We 
must give more tooth to the chief counsel of Advocacy to 
enforce the President's vision.
    I want to work with my colleagues on both sides of the Hill 
to pass the bill that produces real results for mainstream 
America.
    I now yield for an opening statement from my good friend 
and colleague, the Ranking Democratic member, Ms. Velazquez.
    [Chairman Manzullo's statement may be found in the 
appendix.]
    Ms. Velazquez. Thank you, Mr. Chairman, and good morning.
    This hearing comes at a very opportune time. Yesterday we 
heard the President speak about ways to help small businesses 
in this country. I am very pleased to see he has read the 
legislative report the Democrats wrote in January. In fact, he 
mentioned five of our 11 concerns: taxes, regulatory issues, 
contracting bundling, worker health care, and expanding the 
Office of Advocacy.
    The President has signaled he plans to issue an Executive 
Order to give the Office of Advocacy more powers and 
independence. He could not have picked a better moment since 
the scope of that power and independence is what brings us here 
today.
    We support a truly independent Office of Advocacy. Small 
businesses agree, which is why we listed it in our report on 
the small business agenda this January. We want a smart 
watchdog that compels the agency to respond to regulatory 
problems that small businesses face.
    There are two real questions before us on this issue. 
First, why do we need an independent Office of Advocacy? 
Everybody says we do. We all want one. But, before we rush 
headlong into this, we need to know exactly what the problem is 
we are trying to solve.
    The problem is the Office of Management and Budget. An 
independent Office of Advocacy must worry about undue influence 
from the executive branch, which means shielding it from OMB. 
We have seen too many times how OMB interferes with changes at 
SBA, such as changing the size standards and subsidy rates.
    So the second real question in evaluating the legislation 
before this committee is, how do we ensure an independent 
office and shield it from OMB? This clearly cannot be done with 
simple window dressing like giving Advocacy a budgetary line 
item or adding so many new responsibilities that it becomes 
bogged down in its own mission.
    Advocacy has been successful because its mission has been 
laser-focused, and we have given it the flexibility to work 
with agencies to find creative solutions to the problems facing 
this country's small businesses. Any future changes must follow 
this trend for Advocacy to continue serving as the voice of 
small business.
    Clearly, there is much more work to be done. We are here to 
find solutions to that end. I hope we can hear from Advocacy's 
chief counsel, Tom Sullivan, about his own ideas about how to 
make the office more independent. I look forward to hearing 
from the witnesses and to learn what ideas they have to achieve 
this goal.
    Thank you, Mr. Chairman.
    [Ms. Velazquez's statement may be found in the appendix.]
    Chairman Manzullo. I noted in the President's initiative 
handed down yesterday it talks about--``for a tighter 
cooperation between the Office of Advocacy and OMB.'' I--maybe 
somebody from the White House was sitting in the audience here 
when we showed the problems with OMB.
    Our first witness is the Honorable Tom Sullivan, Chief 
Counsel for Advocacy.

 STATEMENT OF THE HONORABLE THOMAS M. SULLIVAN, CHIEF COUNSEL, 
     OFFICE OF ADVOCACY, U.S. SMALL BUSINESS ADMINISTRATION

    Mr. Sullivan. Chairman Manzullo----
    Chairman Manzullo. Could you pull the mike up closer?
    Mr. Sullivan. Certainly.
    Chairman Manzullo. Thank you.
    Mr. Sullivan. Chairman Manzullo, Congresswoman Velazquez, 
Congressman Pascrell, good morning and thank you for the 
opportunity to appear before you today to discuss ways to 
strengthen and improve the Office of Advocacy, a concept I have 
been supportive of even before coming on board as chief 
counsel.
    I was also encouraged by President Bush's announcement 
yesterday and the small business agenda he formalized during 
the Women's Entrepreneurship conference.
    Thank you also for accepting my written statement into the 
record. I will summarize some of the key points.
    First, let me say that I am committed to working with this 
committee, Congress, and the President both to ensure the 
Office of Advocacy's independence well past my tenure and to 
make sure that the government is accountable to small 
businesses through compliance with the provisions of the 
Regulatory Flexibility Act (the RFA), and the Small Business 
Regulatory Enforcement Fairness Act (SBREFA).
    I believe these two goals, strengthening the independence 
of the office and enhancing the effectiveness of the RFA and 
SBREFA, are best addressed separately because each by itself 
deserves the full attention of both Congress and the 
administration.
    Later this week, our office will be releasing the annual 
report on agency compliance with the RFA for Fiscal Year 2001. 
I can assure you that this committee will be the first to see 
that report. This report will detail successes and failures and 
will help frame the debate on how we can all work together to 
ensure greater attention to the unique needs of small 
businesses early in the regulatory process, the tenet of the 
RFA.
    With respect to the issue of strengthening the Office of 
Advocacy, the focus of our discussion this morning, I want to 
express my appreciation to the committee and staff for their 
willingness to look carefully at various options in crafting 
legislation to strengthen Advocacy's role as the voice for 
small business within the Federal Government. It will be 
important to keep in mind preserving both the chief counsel's 
independence and the flexibility to respond to new concerns as 
they arise.
    I believe that if legislation is needed to improve the 
Office of Advocacy's independence and ability to carry out its 
mandate, it should be done as cleanly and simply as possible.
    I should also note for the record that the administration 
and, in particular, Administrator Barreto's team have been 
fully supportive of my office. Discussion of legislative 
options that seek greater independence for Advocacy should not 
in any way imply an immediate need to exercise that budgetary 
independence. Legislation, if needed at all, should be framed 
in the context of an Office of Advocacy that does not 
necessarily have the luxury of having such an accommodating 
landlord as I have in Hector Barreto.
    In a few minutes we'll hear from Michael Barrera, the SBA's 
current National Ombudsman. I know that Michael shares my 
vision of our complementary roles in support of small business.
    Michael and I met to discuss our respective offices even 
before I came on board, and we continue to meet regularly. I am 
proud to announce that, just this morning, we signed a 
memorandum of understanding that will help both our offices 
work together to benefit small business while at the same time 
recognizing the independence of the Office of Advocacy.
    With the Chair's permission, I would ask that that 
Memorandum of Understanding be inserted into the record.
    Chairman Manzullo. The statements of the witnesses and of 
the members, along with the memorandum, will be admitted 
without objection.
    Mr. Sullivan. Thank you, Mr. Chairman.
    There have been some legislative proposals to require 
Advocacy to report on specific subjects. While these provisions 
may be well-intentioned, such a legislative mandate sets a 
precedent that contradicts the flexibility inherent in 
Advocacy's role.
    Advocacy has a strong history of listening to small 
business owners and working with this committee to develop the 
research and action agenda that makes the best use of 
Advocacy's resources. I fully intend to build on that tradition 
and capacity. For that reason, I am reluctant to endorse 
legislative provisions that constrain our research flexibility.
    I am encouraged by this committee's dedication to the 
Office of Advocacy's success and the benefits that obviously 
are realized by small business owners themselves. I pledge my 
full cooperation and the resources of Advocacy to work toward 
solutions that will help our country's economic engine, small 
business.
    [Mr. Sullivan's statement may be found in the appendix.]
    Chairman Manzullo. Thank you. Our next witness will be 
Michael Barrera, the National Ombudsman. Mr. Barrera 
accompanied Administrator Barreto to northern Illinois, I 
think, the first week after your boss was confirmed and had a 
great time there.

 STATEMENT OF MICHAEL BARRERA, SMALL BUSINESS AND AGRICULTURE 
    REGULATORY, ENFORCEMENT OMBUDSMAN, U.S. SMALL BUSINESS 
                         ADMINISTRATION

    Mr. Barrera. Mm-hmm.
    Chairman Manzullo. I really appreciated the fact that you 
came along and had a lot of input and met a lot of fine people 
in northern Illinois, including my brother at the restaurant. 
So that was a lot of fun, Michael.
    Mr. Barrera. Unfortunately, I didn't get a chance to eat, 
but I look forward to going back.
    Chairman Manzullo. Yes. That's good. We'll be looking 
forward to your testimony.
    Mr. Barrera. Thank you, Mr. Chairman.
    Chairman Manzullo. Could you put the mike a little bit 
closer. Thank you.
    Mr. Barrera. Is that better? Okay.
    Thank you, Mr. Chairman Manzullo, Ranking Member Velazquez, 
Congressman Pascrell, and Congressman Langevin, for providing 
me my first opportunity to comment on how the Office of the 
National Ombudsman can help improve the regulatory environment 
for small businesses.
    First of all, I would like to state that I look forward to 
working with the committee, Congress, small entrepreneurs, and 
the new chief counsel for Advocacy, Tom Sullivan, to improve 
the regulatory enforcement environment for our nation's 25\1/2\ 
million small businesses. In fact, I have already met with 
staff from both the Senate and House Small Business Committees 
and with Mr. Sullivan on several occasions to discuss how the 
Office of Advocacy and the Office of the National Ombudsman can 
work together to ensure a fair small business regulatory 
environment.
    As Mr. Sullivan mentioned earlier, we both agree that a 
strong working relationship with frequent communication between 
the two offices is critical to the SBA's mission of aiding and 
counseling America's small businesses and protecting small 
businesses against unnecessary regulatory burdens.
    The President also recognizes the importance of regulatory 
fairness for small businesses and, just yesterday, unveiled his 
plan to help create an environment where small businesses can 
flourish.
    Some components of his plan include issuing an executive 
order to provide greater enforcement powers to the Office of 
Advocacy, instruction to the director of OMB to seek the views 
and comments of small businesses on existing Federal 
regulations, paperwork requirements, and guidance documents, 
instruction to the OMB and Advocacy to work together to 
strengthen the enforcement of the Regulatory Flexibility Act 
and for increasing the coordination between OIRA and Advocacy.
    Along those lines, Mr. Sullivan and I have taken the 
initiative to strengthen the complementary roles we each play 
in working to benefit small businesses. Like Tom, I am also 
pleased to announce that, as of today, we have signed a 
memorandum of understanding that, while maintaining our 
independence, enhances our relationship that will enable us to 
put forth our best efforts to assist the small business 
community.
    As part of SBA, the SBA National Ombudsman can communicate 
small business issues directly to the SBA administrator and 
appropriate program managers. Administrator Barreto has 
recognized the importance of the SBA National Ombudsman and 
sources to the SBA's field offices to use my office as another 
tool to assist and protect small businesses.
    The mission of the SBA National Ombudsman is now more 
relevant and more effective than ever before because it is now 
a core function of the SBA, and its services are available at 
the grassroots level through local SBA offices.
    I believe that Administrator Barreto underscored his 
commitment to regulatory fairness by making the appointment of 
the National Ombudsman one of his first after his confirmation. 
Since that time, the Office of the National Ombudsman has held 
six regulatory enforcement fairness hearings and six regulatory 
enforcement fairness roundtables.
    We plan to have at least one hearing and one roundtable in 
each federal region. This increase in hearings and roundtables 
is directly attributed to Administrator Barreto's commitment to 
make the mission of this office a core function of the SBA.
    In addition to the increase in the number of hearings, 
attendance at the hearings and roundtables has also increased 
dramatically. For example, attendance at our hearings in 
Orlando and Albuquerque drew crowds of approximately 70 and 80 
small business owners and other interested parties, 
respectively.
    Additionally, through contacts and efforts of our district 
field offices, we have received excellent news coverage for our 
hearings. This support greatly assists our office in marketing 
the resources of the SBA National Ombudsman.
    As demonstrated by this committee's March 6, 2002, hearing 
on the Regulatory Flexibility Act, there was continued need to 
eliminate unnecessary regulatory burdens on America's small 
businesses.
    On behalf of President Bush, Administrator Barreto, and the 
Office of the SBA National Ombudsman, I look forward to working 
with the chief counsel, our legislative partners, and America's 
small businesses to eliminate the unnecessary regulatory 
burdens and excessive regulatory enforcement burdens on our 
nation's entrepreneurs.
    Thank you for the opportunity to appear today. I will be 
happy to answer any of your questions. Thank you.
    [Mr. Barrera's statement may be found in the appendix.]
    Chairman Manzullo. Thank you.
    Our next witness will be Jere Glover with Brand & Frulla.
    I thought you retired. I know you got that sailboat.

      STATEMENT OF JERE W. GLOVER, COUNSEL, BRAND & FRULLA

    Mr. Glover. I did retire from the Federal Government, Mr. 
Chairman, but I am still back in the practice of law.
    Chairman Manzullo. You didn't retire from life.
    Mr. Glover. I did not retire from life.
    Chairman Manzullo. Okay.
    Mr. Glover. Nor small business advocacy.
    Chairman Manzullo. We look forward to your testimony.
    Mr. Glover. Thank you, Mr. Chairman, Members of the 
Committee. It's great to be here with you discussing an issue 
that's very near and dear to my heart.
    You know, yesterday was a great day. Any time a President 
mentions small business, it's a great day. When the President 
mentioned strengthening the Office of Advocacy, it's a really 
great day. And when he talks about stopping contract bundling, 
it just makes it phenomenal. So I will tell you that we have to 
be very pleased about hearing that happen.
    I've had this fantasy that's gone on for years, this, 
perhaps, dream, and that is that at one presidential debate, 
the two candidates will discuss what is best for small 
business. We haven't reached that yet, but, certainly, 
yesterday was a good day.
    Well, let me try to put the discussion about the Office of 
Advocacy into context. First of all, you have to recognize that 
the role within the Small Business Administration has declined 
over time. When you look at the number of resources that SBA 
has dedicated to advocacy, it's less than two percent. When you 
look at SBA's budget, again, less than two percent.
    But let's put it in a little broader context. We had 
roughly 50 employees when I was there. I understand the number 
is down a little bit, and I'm not sure where that's going to 
end up right--overall.
    But the Department of Commerce, which is tasked with 
primarily helping large firms--and I'm not questioning their 
justification for their existence of their number of employees, 
but they have 32,981 employees. The U.S. Department of 
Agriculture has 110,000 employees. The Department of Labor has 
15,374 employees. All told, the Federal Government has 
1,660,313, according to the last count I saw, full-time Federal 
employees.
    Having less than 50 do the research, fight the regulatory 
battles and provide important information to policymakers for 
decisions seems like things are a little askew.
    When I was first in the Office of Advocacy in the late 
1970s, we had five percent of SBA's budget and about five 
percent of the employees. The Congress put a floor in the 
legislation, which I mentioned in my testimony, that said, 
``Not less than 69 employees and less than $3 million in 
research would be spent on the Office of Advocacy.'' That kind 
of clear congressional direction held the office in good stead 
for many, many years, but over the last few years we've seen 
some things begin to--the numbers and things erode.
    If we look at this from a cost benefit analysis, there have 
been roughly $16 billion in regulatory savings by actions by 
the Office of Advocacy and the Regulatory Flexibility Act, $16 
billion. If you do a cost benefit analysis on SBA's Office of 
Advocacy's budget, you find out that it's $800 returned for 
every dollar spent. That kind of cost benefit analysis is the 
kind that you would like to see in everything the government 
does.
    Now we have to remember that this office is, by its very 
nature, controversial. There will be people who don't like what 
it does. We can remember back in 1995 when a vote on the floor 
of the House of Representatives came within 30 votes of 
eliminating that office forever. I think we have to recognize 
that, left to their own devices, this office will not receive 
the focus, the attention, and the priority that it deserves.
    Let me go back to the President's statement on advocacy. 
It's a great statement. I dare say that the administrator did 
not call the chief counsel up last night and said, ``I just had 
a great meeting with the President. I'm going to increase your 
slots by 25 percent, and you've got another half-million 
dollars in research.''
    I know, when SBREFA was passed and the panel process was 
put in place, which tremendously increased the responsibilities 
for the Office of Advocacy, we didn't get a single slot or a 
single dollar to implement that. In fact, the--the report that 
we filed before the election on the background paper on the 
Office of Advocacy 1994-2000 has a chart which shows the Office 
of Advocacy's staffing overtime. And when SBREFA passed, we 
actually lost six slots because SBA was in a government-wide 
freeze--an agency-wide freeze. We never got those slots back. 
So I think that we have to recognize that something specific 
really does need to be done.
    Now I will tell you that--that I was very proud of all of 
the accomplishments that the Office of Advocacy had while I was 
there. I was certainly appreciative of the congressional 
support that the office had. Could I have done more if I had 
had more resources? Absolutely. I have total confidence in Tom 
Sullivan, the current chief counsel. He will do the very best 
job that he can do with the resources and personnel he has. Can 
he do more with more? Absolutely.
    I think the historical precedent when this committee, back 
in the early 1980s, when the first chief counsel who I had the 
privilege of working under and mentoring under and learning 
from left, and a new chief counsel came in, they wanted to make 
sure that the office didn't lose the status. And that's why it 
said, ``Not less than 69 employees, not less than $3 million in 
research.''
    That kind of provision did make a difference, and it stayed 
there for a long time. Let me just ask the question. Between 
those periods in the late 1970s, early 1980s, is the Office of 
Advocacy less important today than it was then? Does it have 
less responsibilities? Is small business less important? Does 
Congress care less about small business? I think not. I think 
it's time to restore the office to its prior status and provide 
it with the resources.
    Thank you very much for the opportunity to be here.
    [Mr. Glover's statement may be found in the appendix.]
    Chairman Manzullo. Well, thank you very much. The--Ms. 
Velazquez, did you want to go first?
    Ms. Velazquez. I don't mind.
    Chairman Manzullo. Okay. Go ahead.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Chairman Manzullo. Get my thoughts together here. Thank 
you.
    Ms. Velazquez. Mr. Sullivan, the President announced a new 
small business initiative yesterday, and you mentioned that too 
in your testimony. With this new executive order in the works, 
should we be considering legislation now too, or should we wait 
until we can see the effects of this executive order?
    Mr. Sullivan. Well, let me--let me actually touch on a few 
things specific to the Office of Advocacy in the announcement 
yesterday. First, one accomplishment that is done already, as 
far as a memorandum, is our written agreement to work very 
early and often with Dr. John Graham in the Office of 
Information and Regulatory Affairs. And, with the 
Congresswoman's permission, I would like to insert that 
Memorandum of Understanding (MOU) also into the hearing record 
because it is a monumental document.
    Chairman Manzullo. That will be accepted into the record 
without hesitation or objection.
    Mr. Sullivan. Thank you, Mr. Chairman.
    Chairman Manzullo. Do you have a copy of that memorandum?
    Mr. Sullivan. Yes, I do, Mr. Chairman.
    Chairman Manzullo. Could you hand it to us up here so we 
could look at it?
    Mr. Sullivan. Yes. And your counsel also has a copy that 
was provided previous to this. I want to make sure that you 
know that we get everything to the committee before the 
hearing, not in the middle.
    I do want to also answer the Congresswoman's other part of 
the question, and that is whether or not we need legislation 
now when there is an executive order that, in fact, does a lot 
in the same direction and with the same purpose of what some of 
the legislation before us attempts to do.
    My answer is, any time you have legislation, presidential 
announcements, executive orders, or roundtable discussions that 
focus on strengthening the Office of Advocacy, I'm all for it.
    Whether or not we're jumping the gun by formalizing 
legislation that could be overcome by executive order, I think 
that those things have to be considered. The timing of those 
two documents is important.
    I think that it is tremendously helpful that the President 
has committed to formalizing an executive order, and I'm sure 
that the President wants to make sure that any legislation that 
seeks to do the same thing is complementary, not contradictory, 
to the executive order.
    Ms. Velazquez. But if you mention that, in the Executive 
Order--it contains a lot of elements that are in the 
legislation. Shouldn't we wait to see those--if that Executive 
Order really works or not?
    Mr. Sullivan. I want to be as responsive as possible 
without getting into specifics of a document that has not been 
written yet. But I think it is wise that this discussion happen 
now because the purpose of both the executive order and the 
legislation is absolutely similar. So, to the extent that they 
complement and do not contradict each other, I do think that 
it's a good idea that those considerations be brought back to 
the President, and I'll certainly convey that.
    Ms. Velazquez. Okay. Mr. Sullivan, I understand you signed 
a memorandum of understanding with OIRA as part of the 
President's new Small Business Initiative. How does this 
memorandum actually change any of the current processes in 
place for inter-agency review?
    Mr. Sullivan. Well, like so many things that we do at the 
Office of Advocacy, we build on the successes of the past. I am 
honored to share the panel not only with Michael Barrera, but 
with the past chief counsel, Jere Glover.
    The Office of Advocacy has historically had an exchange of 
letters with Dr. Graham's office, the Office of Information and 
Regulatory Affairs. That exchange of letters simply formalizes 
a working relationship of examining agency proposals and how 
they impact business, quite frankly, how they benefit 
businesses, more along the lines of what Dr. Graham's shop 
does.
    What the MOU does is to go even further. It specifically 
calls upon Dr. Graham's executive order authority to send back 
regulations and uses that authority to examine whether or not 
agencies have complied with the Reg Flex Act according to the 
Office of Advocacy.
    Ms. Velazquez. Mr. Sullivan, giving Advocacy its own line 
item is being characterized as giving Advocacy independence. 
However, Advocacy will still need to submit budget requests to 
the administration, just to OMB instead of SBA.
    This question is meant--no. I'm sorry. I just want for you 
to tell me, if this office is given this line item, does this 
mean that your budget request will be submitted to OMB instead 
of SBA?
    Mr. Sullivan. The Congresswoman is referring to two 
separate draftings of how an independent budget would work. 
There is the draft that is the discussion of this hearing that 
is worded as concurrent submission. And I believe that the way 
that would work would be that the Office of Advocacy would 
separately submit its budget to Congress.
    The preferable approach, in my opinion, if legislation is 
needed to separate our budget, is what is contained in S. 395 
that the Chairman mentioned in his opening statement. And that 
isn't a concurrent budget submission, but rather required 
within the President's budget that the Office of Advocacy be a 
line item similar to the way our research budget is line-itemed 
currently.
    Ms. Velazquez. And let me ask you, given the fact that as--
as the Office of Advocacy, you may be, at times, critical of 
the office of OMB. And, given that time of relationship, we can 
expect that relationship to be confrontational at times. So, 
after spending a year holding OMB's feet to the fire, how 
likely is it that OMB will approve your budget?
    Mr. Sullivan. Well, I think one of the advantages of having 
the Office of Advocacy's budget clear, whether it be submitted 
concurrently or whether it be part of the President's budget, 
is that it is out in the open. This is an item, a dollar amount 
that then gets the full attention of this committee, the full 
attention of OMB and the President and the various entities 
that do have budget approval authority.
    I think the more folks that know the benefits of the Office 
of Advocacy and the resources that we need to do a good job, 
the better off we are.
    Ms. Velazquez. During our hearing on Reg Flex compliance, 
you testified that legislation to strengthen the Reg Flex Act 
should be an avenue of last resort. It's two weeks later, and 
this bill contains new authority for the Office of Advocacy. 
Are we now already at the point of last resort?
    Mr. Sullivan. Well, actually, we're starting a whole new 
chapter and an exciting chapter that was formalized yesterday 
in the President's announcement and small business agenda.
    One of the things that would happen ideally, before 
reaching the last resort, would be to have the President's 
emphasis of agencies complying with the Regulatory Flexibility 
Act. That has happened. That has happened in the proclamation 
and commitment to formalize that agenda through an executive 
order.
    So when I came here a month ago and talked about things 
that I would prefer rather than changing the law, those have, 
in fact, happened, and I'm very excited about it. So, to the 
extent that we discuss legislative options now, I think we're 
dealing with a whole new framework and an exciting framework, 
but certainly something that should be taken into account prior 
to changing existing laws.
    Ms. Velazquez. We will have a second round, right?
    Chairman Manzullo. Well, I--yes, of course, of course. It's 
just the two of us here.
    Ms. Velazquez. Thank you.
    Chairman Manzullo. Thank you.
    I have a couple of questions. And I can understand the 
President's proposal yesterday, and it's a lot of things that 
we've been talking about here, but I would suggest--and I 
appreciate everything that they--that both of you gentlemen are 
doing.
    Our committee never got any heads-up that the President was 
even considering any small business agenda. And then we found 
out on the grapevine, placed a call, and then the extent of our 
briefing was a phone call that came to our staff on Friday 
afternoon, that somebody came from the SBA on Friday afternoon. 
I mean, this is not acceptable.
    The--we sit up here and pull the hair out of our heads. We 
had to throw together a rather ugly meeting, a very ugly 
meeting, with the head of OIRA and the Administrator. As a 
result of that, we get a Memorandum of Understanding.
    I just want to know when is the SBA going to come to this 
Committee, the Committee of Jurisdiction and say, ``We're 
working on legislation. We'd like you to have some input into 
it.'' I mean, do you think that would be a good idea?
    Mr. Sullivan. Mr. Chairman, let me actually address this on 
behalf of the Office of Advocacy but not address the questions 
that you put, more appropriately to the administration.
    But with regards to legislative drafting and the vetting, 
the full vetting of views so that we both can benefit from our 
experiences, I have met, as you know, regularly with your 
staff. And, in particular, I am absolutely pleased that my 
concerns in the drafting of legislation were not only listened 
to, but then formalized in a re-draft that we have before us 
today. And so the working relationship with the Office of 
Advocacy, in my view, is not constrained at all.
    Chairman Manzullo. I'm not talking about our relationship. 
I'm just--I guess I'm just expressing to you the frustration--
perhaps it's of the Republican Congress that the Members just 
can't get the ear of the President. We have no input. Phone 
calls are not returned. The--I know how hard you work there, 
but it's as if--you know, the President comes out with a small 
business agenda, and Members of Congress--I mean, we're 
supposed to carry the water, at least on a portion of this 
legislation, and, you know, we're glad to do that.
    But I think at the minimum perhaps, you know, both of you 
are the ultimate middlemen. If you stop to think about it, you 
really are, and you're placed there for a reason. And you're 
both doing an excellent job on it, but there has to be a better 
relationship between the Administration and the Committees of 
Jurisdiction because, at this point, there is none. And I'm not 
criticizing Mr. Barreto because he's been--he gets a hundred 
percent in my book. But there's a huge disconnect going on 
here.
    Mr. Sullivan. I appreciate the comments of the chairman. 
Although I do have the luxury of independence from the 
administration, I will absolutely view yesterday's announcement 
and the two-day announcement of the small business agenda, 
first in Missouri and then yesterday at the Reagan center, as 
an opportunity to engage both with the White House and with 
this committee to flush out exactly how the agenda can work 
cooperatively.
    Chairman Manzullo. Let me give you a suggestion.
    Mr. Sullivan [continuing]. Whatever legislative options may 
exist.
    Chairman Manzullo. One suggestion would be for the 
President to sit down with the Administrator and the Chairman 
of the Committee on some common goals for the--I mean, this is 
so simple, but it's not done. And I'm convinced that, unless we 
raise hell at this Committee level, we don't have any voice 
going into the White House.
    I mean, we're going to have another hearing, very 
contentious hearing, coming up in two weeks dealing with the 
Administrator of HCFA because of the continuous pounding by 
that organization of small businesses.
    Ms. Velazquez. Mister----
    Chairman Manzullo. Yes, I would yield.
    Ms. Velazquez. I'm sorry. Yeah. Thank you, Mr. Chairman.
    I just would like to share with you the fact that Mitch 
Daniel now will have more to say in terms of contract bundling. 
And I think that it's appropriate that we bring him into this 
Committee so that he could explain and share with this 
Committee what his views are regarding contract bundling.
    Chairman Manzullo. That's a good idea.
    I'm looking at this Memorandum of Understanding with you 
and OIRA, and I know it's a good start. The words in it, 
however, are precatory. Every word is a ``may''. For example, 
on page two--and I know, Tom, you fought to put ``shall'' in 
there.
    For example, in IV, Responsibility to Advocacy, ``During 
OIRA's review of an agency rule under Executive Order 12866, 
OIRA may consult with Advocacy whether--regarding whether an 
agency should have prepared a regulatory flexibility 
analysis.''
    Now, under the bill that Ms. Velazquez introduced and on 
which I'm a co-sponsor, that's the bill that lodges the power 
within the SBA Administrator to say that these do apply. Would 
you be in favor of that particular--what's the number of it, 
Ms. Velazquez?
    [A discussion was held off the record.]
    Chairman Manzullo. 1324.
    Mr. Sullivan. Mr. Chairman, actually, the language that 
you're reading in the MOU is deliberate, and it's deliberate 
for two reasons. One is that it maintains the independence of 
the Office of Advocacy.
    Dr. Graham was extremely sensitive to the misperception, 
once we sign an MOU, that the Office of Advocacy and the 
President's regulatory advisor be somehow portrayed as being in 
cahoots on regulatory issues. And so the ``may'' wording is 
deliberate.
    Second, it was in the full anticipation--because we just 
signed this yesterday--that the executive order would put more 
teeth into some of the flexibility that is otherwise contained 
in the MOU, while, at the same time, maintaining the 
independence. So you see that we have a challenging but 
fantastic opportunity in front of us to formalize that.
    And I do need to talk about our communication with the 
committee and the White House because I view the announcement 
as tremendously beneficial to small business, obviously, to our 
office and the powers that our office have to help small 
business, but not as a communication breakdown, but as an 
opportunity to fully engage with the White House.
    Chairman Manzullo. Let me explain communication breakdown. 
The Executive Order was issued, and we found out about it in 
the press, and no one ever gave us a copy of that order. Or it 
hasn't been issued.
    Mr. Sullivan. It has not been issued.
    Chairman Manzullo. Okay. All right.
    Mr. Sullivan. And, in fact, therein lies, I think, a great 
opportunity for this committee----
    Chairman Manzullo. It is. I mean, now what----
    Mr. Sullivan [continuing]. To work with the White House and 
also Mitch Daniels on contract bundling.
    Chairman Manzullo. But let me ask you this question. When 
we request a meeting with the White House to go over these 
things, it falls on deaf ears. I mean, there is a very serious 
breach between the majority in this House and the White House 
with regard to these issues. And that is that members of 
Congress are not given the opportunity to speak with the 
President directly on small business issues.
    And, somehow, on all the vetting and everything that's 
going on, I would just urge you to go back to the Administrator 
and say, ``These are the committees that are involved.'' We are 
the ones that are elected. We're the ones that have to face the 
people. We're the ones that have to pass the legislation.
    I mean, this frankly has taken a ball, and you pitch it 
from one hand to the other hand to the other hand. There would 
be nothing unconstitutional with the President consulting this 
Committee or this Chairman with regard to wording of the 
Executive Order. In fact, that's the very same problem we got 
into when the SBA Administrator and the Chief of Staff issued 
the rules for--the emergency rules that made the entire nation 
a disaster area, refusing to allow this Committee to have any 
input. And, evidently, the message never got through. I mean, 
why are Members of Congress refused to have any input in any 
decisions that are being made by the SBA?
    Mr. Sullivan. I am not in a position, Mr. Chairman, to 
respond----
    Chairman Manzullo. I can appreciate----
    Mr. Sullivan [continuing]. Or speculate on this line of 
comment or question. I apologize.
    Chairman Manzullo. Well, you don't have to apologize. 
That's not your area.
    Ms. Velazquez. Would the Chairman yield?
    Chairman Manzullo. Of course, I would yield.
    Ms. Velazquez. I think, Mr. Chairman, and I don't just want 
to come here and excuse Mr. Barreto, but I was impressed when I 
was reading the President's speech. And the first question that 
I asked my staff is, ``Was Hector Barreto there?'' And the 
President didn't even mention Hector Barreto in his speech. I 
think that the two people that we need to work with and talk to 
is Mitch Daniel and Larry Lindsay, the----
    Chairman Manzullo. Let me reclaim my time.
    The Office of the President is working with our staff on 
drafting that Executive Order, so I stand corrected on that. 
But there is a lot of frustration that's going on here. It's 
obvious that a lot of work is being done to tighten the avenue 
of communication on it.
    The--with regard to the ombudsman and the regulatory 
fairness hearing and roundtable schedule for Fiscal Year 2002, 
I don't see Illinois in here.
    Mr. Barrera. We can definitely put it in there if you would 
like that.
    Chairman Manzullo. But we did have a hearing, I think. Was 
it two years ago?
    Mr. Barrera. I think we did.
    Chairman Manzullo. We did. That's correct.
    Mr. Barrera. What we tried to do, Mr. Chairman is one of 
the comments I heard when I started is that we weren't getting 
out to enough states in the country, and we're trying to spread 
that out. And, as you know, we went to Indianapolis for the 
first time, and we're going to Milwaukee for the first time, 
which are in that Federal region. But, if the Chairman would 
like a hearing, we would do everything we can to have one 
there.
    Chairman Manzullo. We would be delighted to work with you 
on that. I do not forget the fact that the Administrator came 
out, spent an entire day there. To me, that was an informal 
hearing when 30 small business people gave them their ear at my 
brother's restaurant. So we don't forget about that.
    Mr. Barrera. Well, I think it also shows, Mr. Chairman, how 
committed he is.
    Chairman Manzullo. Absolutely.
    Mr. Barrera. To the regulatory fairness. He knows your 
commitment, and he wanted to bring me along. And I enjoyed 
Rockford. I really enjoyed the small towns.
    Chairman Manzullo. That's great. You enjoyed the pizza at 
my brother's restaurant too, I think.
    I don't have any further questions. Do you have anymore, 
Ms. Velazquez.
    Ms. Velazquez. Out of New York City, Mr. Sullivan, I just 
would like to know if SBA provided comments to OMB on the 
recent CMS prescription drug card regulation.
    Mr. Sullivan. It's my understanding that we did provide 
comments.
    Ms. Velazquez. And were your comments made part of the 
public record?
    Mr. Sullivan. It is also my understanding that those 
comments from Advocacy, as part of the inter-agency review, 
were not made part of the public comment docket.
    Ms. Velazquez. Is it your understanding that OMB is able to 
pick and choose which comments are made part of the public 
record?
    Mr. Sullivan. That is not my understanding.
    Ms. Velazquez. That is not your understanding.
    Mr. Sullivan. No. I apologize, again, for what appears to 
be a lack of responsiveness. I do not know how OMB or the 
issuing agency decides which comments they put in the record 
and which they do not.
    Ms. Velazquez. So why do you think they didn't do it? Why 
they don't follow the law?
    Mr. Sullivan. Again, I don't know if I'm in a position to 
be able to speculate on how an issuing agency decides whether 
or not to include interagency review comments into the record.
    I should say that it is an absolute compliment to the 
Office of Advocacy that not only do we monitor closely 
compliance with the Regulatory Flexibility Act during 
preproposal and proposed regs, but when the Administration does 
circulate proposals outside of that context, then we do comment 
also through that process. So it's almost a dual commenting 
procedure. The internal OMB clearance process does not lend 
itself to the public letter writing that is such a key part of 
the Office of Advocacy.
    Ms. Velazquez. Mr. Sullivan, within the last 15 months, do 
you know how many regulations you have commented on as far as 
OMB inter-agency review, and how many of those comments were 
not made part of the public record?
    Mr. Sullivan. I do not know, Congresswoman Velazquez.
    Ms. Velazquez. Have you received any feedback from OMB or 
CMS regarding changes that were made to regulations based on 
Advocacy's input? Do you know if the outcome of the regulation 
is the same?
    Mr. Sullivan. We have received comment back, in particular, 
from CMS, which used to be HCFA----
    Ms. Velazquez. You have----
    Mr. Sullivan [continuing]. On our comments on their lack of 
attention to the Regulatory Flexibility Act. I do not know 
whether or not those communications are in written form to 
date.
    Chairman Manzullo. Could you yield for a second?
    Ms. Velazquez. Sure.
    Chairman Manzullo. The--I would state that one of the 
reasons we're having this hearing with HCFA on April 10th is 
because HCFA blew off the Office of Advocacy, I think, no less 
than four or five times with such arrogance that the only way 
we can have accountability is to bring HCFA here. But Office of 
Advocacy did its job. And we want to work with you, Tom, to 
make sure that you have a lot more teeth to compel that 
organization to listen to small businesspeople.
    Mr. Sullivan. I thank the Chairman, and I also thank the 
President for also----
    Chairman Manzullo. Yes.
    Mr. Sullivan [continuing]. Following along those lines to 
make sure that agencies do pay very serious attention to their 
obligations under the Regulatory Flexibility Act.
    Ms. Velazquez. Mr. Sullivan, I just would like to ask you 
that--please submit to the Committee copies of the regulation 
that you have commented on in the last 15 months.
    Mr. Sullivan. We would be happy to do so, Congresswoman 
Velazquez.
    Ms. Velazquez. Mr. Chairman, I have other questions, but I 
just would like to submit it so that they could respond to us 
in writing.
    Chairman Manzullo. The----
    Ms. Velazquez. I have--I do have one last question.
    Chairman Manzullo. Oh, go ahead. But, first of all, you 
want to submit written questions?
    Ms. Velazquez. Yes.
    Chairman Manzullo. And then how----
    Ms. Velazquez. Both to the----
    Chairman Manzullo. How long would it take you to submit the 
written questions and what----
    Ms. Velazquez. Tomorrow.
    Chairman Manzullo. Tomorrow.
    And then how much time would you need to respond?
    Mr. Sullivan. We will respond as soon as we're able. We're 
happy, certainly, to receive any of the questions from the 
Committee and respond appropriately.
    Chairman Manzullo. Okay.
    Ms. Velazquez. Thank you.
    Chairman Manzullo. Okay.
    Ms. Velazquez. Mr. Sullivan, you mentioned having Advocacy 
funding out there in one of the questions that I asked you 
before. So I want to ask your input on a provision in the draft 
bill that we are considering. What is the budget now?
    Mr. Sullivan. I don't have an exact amount, but it is 
around $8 million.
    Chairman Manzullo. I need to do a couple of housekeeping 
things. Is it my understanding that you're going to be giving 
this Committee copies of comments that you made to OMB on the 
prescription card, your comment on that?
    Mr. Sullivan. Again, we'll be responding to written 
questions that, I think, would clarify what the Committee wants 
to know. And we are happy to provide detailed responses to any 
of the questions that the committee provides.
    Chairman Manzullo. Okay. Well, I have a functional 
question. When we are approached by constituents or the broader 
small business community, sometimes they don't know whether to 
send them to Michael, who is also an attorney, or to the 
Ombudsman or to the Office of Advocacy. Sometimes we do both. 
Could you give us some guidelines on how we should do that? Can 
you even give us some examples?
    Mr. Barrera. I don't think you can go wrong to send them to 
either one of us, Mr. Chairman. And I think the Memorandum of 
Understanding that we just signed addresses that. Both of our 
offices know what our jurisdictions are, and, under our 
Memorandum, if this is an issue that our office should handle, 
and it gets to Advocacy they'll send it to us. An issue that we 
believe Advocacy can handle, we'll send it to them. And we 
don't really want to have small business decide which side is 
good. They have enough to worry about.
    Chairman Manzullo. Yeah.
    Mr. Barrera. So they send them to us, or we would welcome 
submissions from the Congress and from you, and we'll figure it 
out for you.
    Mr. Sullivan. The Chairman did ask for a specific example, 
and there's a great one. During one of Mike's travels--and he's 
on the road a good deal; that's part of his job--one of the 
small business owners approached Mike with a regulatory comment 
on an EPA rule having to do with small oil refineries. And 
Mike, just as is memorialized in the MOU, passed that on 
directly to our office so that we were able to incorporate that 
into an Advocacy comment in the regulatory process.
    So it is working well, and it's going to work even better 
now that we've formalized our relationship in an MOU.
    Chairman Manzullo. We have been receiving numerous 
inquiries from across the country from small businessmen and 
women who are being cut off by major banks for financing even 
when they're not in default.
    I got involved in a case involving one of my constituents, 
and the bank got creative and went to the SBA and got a $1.3 
million 7(a) loan, which would save the day. But, had I not 
gotten involved--it was just a very general letter. I mean, 
they sent the letter of the bank saying, you know, ``These 
people are going to default.''
    They provided an avenue of payment, and ``I realize there 
are regulations, et cetera, but can you help them out?'' And, 
all of a sudden, the bank stopped what could have been a 
foreclosure proceeding destroying a small business, and they 
got creative with a 7(a) loan.
    And one of the things that you might just want to think 
about--and we're not asking for a comment--is that this has 
become an epidemic in the small business community, as you 
know. And that would be--I don't know if the word is 
``advertise,'' but let these banks know that are really coming 
down on small businesses the availability of the 504 and the 
7(a) programs. It could ultimately or already be considered the 
loan of last resort. At least the banks should be more than 
willing to turn to the SBA and say, ``Hey, we've got this 
situation.''
    Have you received many complaints like this, the Ombudsman 
or the Office of Advocacy, from small businesspeople?
    Mr. Barrera. I have not heard complaints like that.
    Chairman Manzullo. Okay.
    Mr. Barrera. But I will say this, the Administrator has 
been very helpful in this when I have my hearings and 
roundtables, I am also now starting to have small business 
roundtables just in general. And we have heard small businesses 
tell banks--we invite banks to these hearings--``We need more 
help with this.'' And it's generally launched like that, but 
nothing about the specifics----
    Chairman Manzullo. Did this Administrator bring on board, 
about two or four months ago, somebody from the private sector 
with a background in creative financing?
    Mr. Barrera. It's Ron Bew, I believe.
    Chairman Manzullo. What is his name?
    Mr. Barrera. I think Ron Bew is now the head of Capital 
Access.
    Chairman Manzullo. That's correct. But I'm just raising 
this because we're getting more and more of these calls.
    Ms. Velazquez, have you been receiving calls like that also 
on the small businesspeople who have limited access to capital 
or banks that are----
    Ms. Velazquez. Every day. But one of the areas where we've 
been getting a lot of calls is on contract bundling.
    Chairman Manzullo. Okay.
    Ms. Velazquez. Mr. Sullivan, I just would like to take this 
opportunity to ask you if the Office of Advocacy currently 
keeps a contract bundling database.
    Mr. Sullivan. We do not currently maintain the contract 
bundling databases, no.
    Ms. Velazquez. Are you planning to do that? The President, 
in his speech, made reference to contract bundling as a very 
important issue. So----
    Mr. Sullivan. The Congresswoman is correct. In addition to 
a number of tremendously exciting proposals that all help small 
business, contract bundling is one of them.
    The Office of Advocacy already has a significant role, as 
this committee knows, in contract bundling. And that role is 
pretty darn effective. And I would point most recently----
    Ms. Velazquez. I'm sorry. That role is pretty what?
    Mr. Sullivan. Pretty darn effective.
    Ms. Velazquez. Effective?
    Mr. Sullivan. Effective, yes. Now does that mean that 
contract bundling is no longer a problem? Absolutely not. Does 
it mean that the Office of Advocacy, using its current 
authority, effectively weighs in, for instance, against the 
Missile Defense Agency effort to lessen its SBIR commitment. 
Writing letters that we not only get to the heads of 
departments, but make sure that your staff and this committee 
knows well, is a way to convince folks about the necessity of 
looking closely at how small businesses are affected in 
contract bundling.
    Ms. Velazquez. Under the draft house proposal, certain 
parts of contract bundling functions will be transferred to the 
Office of Advocacy.
    Mr. Sullivan. It is my understanding that the draft before 
us doesn't. And, in my written statement, I do share some 
reluctance on taking over SBA programmatic functions.
    One solution legislatively is to put them in the Office of 
Advocacy. That is a compliment, in that it does show that we're 
doing a good job. In programs that may be struggling, some 
folks view that putting them into our offices will make sure 
that they, in turn, will be done well.
    But in each of those areas, whether it be the State of 
Small Business Report, in which we do have a role, or contract 
bundling or others--we actually do have a current role, a good 
role--maybe I overstated it by saying ``a pretty darn effective 
role''--but a good, important role. I'm not sure whether taking 
on a programmatic function, a core responsibility of each of 
these programs enhances our office's role or, quite frankly, 
take it back further.
    Ms. Velazquez. Mr. Barrera, I do have some questions for 
you, but I will submit them so that you can answer to me.
    Mr. Barrera. Okay.
    Ms. Velazquez. And I just want to say that, since you have 
been in this office, you have been doing a great job, and I 
look forward to talking and working with you.
    Mr. Barrera. In fact, we are coming to New York, I believe, 
in May, Congresswoman, and we're coming to Illinois.
    Chairman Manzullo. You've already been there. We welcome 
you again.
    Again, on that note, you're all doing a great job. I don't 
know how many times Tom has stopped by, and Michael has stopped 
by. And, Jere, we've known each other for what, nine, 10 years 
now?
    Mr. Glover. Yes, sir.
    Chairman Manzullo. I have a tremendous sense of working 
with this. In fact, back in 1993 I was a freshman. And I had 
the horrible task of leading the legislation to change the 
Clean Air Act with respect to something called the Employee 
Commute Option. This was forced carpooling on small businesses.
    And that was a--but you want to get your own party on 
that--and started fighting big time on the Employee Commute 
Option. And, at that point, I realized--I said, ``Hey, you 
know, this guy is really independent. I wonder if he's 
Republican or a Democrat.'' And it made no difference to you, 
Jere. You were in there just fighting for the small 
businessperson. And party label meant nothing to you, nor to 
you, Michael, or to you, Tom.
    And I've come to admire that Office of Advocacy. In fact, I 
am the one that wants you to be able to start a class action 
lawsuit on behalf of small businesspeople. But I don't think 
anybody's going to let me go that far on it. But that's how 
much strength I want to give to make that Advocacy Office a 
world class law firm with lots of resources and the ability to 
start actions and intervene, as opposed to the limited 
jurisdiction now. But I will take that bill up another day.
    And, again, we thank you for coming here. We look forward 
to working with you.
    This committee meeting is adjourned.
    [Whereupon, at 11:45 a.m., the Committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T9993A.001
    
    [GRAPHIC] [TIFF OMITTED] T9993A.002
    
    [GRAPHIC] [TIFF OMITTED] T9993A.003
    
    [GRAPHIC] [TIFF OMITTED] T9993A.004
    
    [GRAPHIC] [TIFF OMITTED] T9993A.005
    
    [GRAPHIC] [TIFF OMITTED] T9993A.006
    
    [GRAPHIC] [TIFF OMITTED] T9993A.007
    
    [GRAPHIC] [TIFF OMITTED] T9993A.008
    
    [GRAPHIC] [TIFF OMITTED] T9993A.009
    
    [GRAPHIC] [TIFF OMITTED] T9993A.010
    
    [GRAPHIC] [TIFF OMITTED] T9993A.011
    
    [GRAPHIC] [TIFF OMITTED] T9993A.012
    
    [GRAPHIC] [TIFF OMITTED] T9993A.013
    
    [GRAPHIC] [TIFF OMITTED] T9993A.014
    
    [GRAPHIC] [TIFF OMITTED] T9993A.015
    
    [GRAPHIC] [TIFF OMITTED] T9993A.016
    
    [GRAPHIC] [TIFF OMITTED] T9993A.017
    
    [GRAPHIC] [TIFF OMITTED] T9993A.018
    
    [GRAPHIC] [TIFF OMITTED] T9993A.019
    
    [GRAPHIC] [TIFF OMITTED] T9993A.020
    
    [GRAPHIC] [TIFF OMITTED] T9993A.021
    
    [GRAPHIC] [TIFF OMITTED] T9993A.022
    
    [GRAPHIC] [TIFF OMITTED] T9993A.023
    
    [GRAPHIC] [TIFF OMITTED] T9993A.024
    
    [GRAPHIC] [TIFF OMITTED] T9993A.025
    
    [GRAPHIC] [TIFF OMITTED] T9993A.026
    
    [GRAPHIC] [TIFF OMITTED] T9993A.027
    
    [GRAPHIC] [TIFF OMITTED] T9993A.028
    
    [GRAPHIC] [TIFF OMITTED] T9993A.029
    
    [GRAPHIC] [TIFF OMITTED] T9993A.030
    
    [GRAPHIC] [TIFF OMITTED] T9993A.051
    
    [GRAPHIC] [TIFF OMITTED] T9993A.052
    
    [GRAPHIC] [TIFF OMITTED] T9993A.053
    
    [GRAPHIC] [TIFF OMITTED] T9993A.054
    
    [GRAPHIC] [TIFF OMITTED] T9993A.055
    
    [GRAPHIC] [TIFF OMITTED] T9993A.056
    
    [GRAPHIC] [TIFF OMITTED] T9993A.057
    
    [GRAPHIC] [TIFF OMITTED] T9993A.058
    
    [GRAPHIC] [TIFF OMITTED] T9993A.059
    
    [GRAPHIC] [TIFF OMITTED] T9993A.060
    

</pre></body></html>
